               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-02070-305




   Combined Assessment Program 

            Review of the 

  Alexandria VA Health Care System
         Pineville, Louisiana 





October 16, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Alexandria VA Health Care System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 tPA            tissue plasminogen activator
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                             CAP Review of the Alexandria VA Health Care System, Pineville, LA



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  Acute Ischemic Stroke Care ................................................................................... 10

  CLC Resident Independence and Dignity ............................................................... 12

  MRI Safety .............................................................................................................. 14


Appendixes
  A. Facility Profile ....................................................................................................      16

  B. Strategic Analytics for Improvement and Learning ............................................                              17

  C. VISN Director Comments ..................................................................................                  20

  D. Facility Director Comments ...............................................................................                 21

  E. OIG Contact and Staff Acknowledgments .........................................................                            29

  F. Report Distribution .............................................................................................          30

  G. Endnotes ...........................................................................................................       31





VA OIG Office of Healthcare Inspections
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
August 4, 2014.

Review Results:          The review covered seven activities.                     We made no
recommendations in the following two activities:

 Medication Management

 Coordination of Care

Recommendations: We made recommendations in the following five activities:
Quality Management: Ensure that the Inpatient Management Committee reviews each
code episode and that code data is collected. Require the Surgical Review Committee
to document its review of National Surgical Office reports and monitoring of surgery
performance improvement activities. Ensure the Blood Usage, Surgical, and Other
Invasive Procedures Review Committee members from Medicine, Surgery, and
Anesthesia Services consistently attend meetings.

Environment of Care: Ensure that patient care areas and public restrooms are clean
and in good repair. Require that all designated same day surgery and eye clinic
employees receive laser safety training in accordance with facility policy.

Acute Ischemic Stroke Care: Revise the stroke policy to address the difference in
approach to patients presenting with symptoms within the facility’s defined timeframe to
be eligible for tissue plasminogen activator and those presenting outside the defined
timeframe. Complete and document National Institutes of Health stroke scales for each
stroke patient. Screen patients for difficulty swallowing prior to oral intake. Provide
printed stroke education to patients upon discharge. Collect and report to the Veterans
Health Administration and the Executive Committee of the Medical Staff the percent of
eligible patients given tissue plasminogen activator, the percent of patients with stroke
symptoms who had the stroke scale completed, and the percent of patients screened
for difficulty swallowing before oral intake.

Community Living Center Resident Independence and Dignity: Offer restorative nursing
services.

Magnetic Resonance Imaging Safety: Conduct emergency drills in magnetic resonance
imaging (MRI). Conduct initial patient safety screenings. Ensure Level 2 MRI
personnel conducting secondary patient safety screenings sign the forms prior to MRI.
Require that radiologists and/or Level 2 MRI personnel document resolution in patients’
electronic health records of all identified MRI contraindications prior to the scan.



VA OIG Office of Healthcare Inspections                                                            i
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


Designate Level 1 ancillary staff, and ensure they receive annual level-specific MRI
safety training. Place appropriate signs to identify MRI Zones III and IV.

Comments
The Veterans Integrated Service Network Director and Facility Director agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–28, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                            ii
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the
CAP process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
August 4, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                           1
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Alexandria VA Health Care System, Pineville, Louisiana, Report
No. 12-00885-200, June 14, 2012.

During this review, we presented crime awareness briefings for 223 employees.
These briefings covered procedures for reporting suspected criminal activity to the
OIG and included case-specific examples illustrating procurement fraud, conflicts of
interest, and bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
225 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.




VA OIG Office of Healthcare Inspections                                                           2
                                          CAP Review of the Alexandria VA Health Care System, Pineville, LA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                  3
                                            CAP Review of the Alexandria VA Health Care System, Pineville, LA


NM               Areas Reviewed (continued)                                    Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         One month of Critical Care Committee (replaced
       met selected requirements:                         by the Inpatient Management Committee)
        An interdisciplinary committee was               meeting minutes reviewed:
          responsible for reviewing episodes of care       There was no evidence that the committee
          where resuscitation was attempted.                 reviewed each episode.
        Resuscitation event reviews included              There was no evidence that data were
          screening for clinical issues prior to events      collected.
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected           Four months of Surgical Review Committee
       requirements:                                      meeting minutes reviewed:
        An interdisciplinary committee with               There was no evidence that National Surgical
          appropriate leadership and clinical               Office reports were reviewed.
          membership met monthly to review surgical        There was no evidence that surgery
          processes and outcomes.                           performance improvement activities were
        Surgical deaths with identified problems or        monitored.
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                    4
                                              CAP Review of the Alexandria VA Health Care System, Pineville, LA


NM             Areas Reviewed (continued)                                     Findings
 X     The process to review blood/transfusions            Twelve months of Blood Usage, Surgical, and
       usage met selected requirements:                    Other Invasive Procedures Review Committee
        A committee with appropriate clinical             meeting minutes reviewed:
         membership met at least quarterly to review        Clinical representatives from Surgery and
         blood/transfusions usage.                           Anesthesia Services did not attend any
        Additional data elements were routinely             meetings, and the Medicine Service
         reviewed.                                           representative attended only 8 of
                                                             12 meetings.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that the Inpatient
Management Committee reviews each code episode and that code data is collected.

2. We recommended that the Surgical Review Committee document its review of National
Surgical Office reports and monitoring of surgery performance improvement activities.

3. We recommended that processes be strengthened to ensure that the Blood Usage,
Surgical, and Other Invasive Procedures Review Committee members from Medicine, Surgery,
and Anesthesia Services consistently attend meetings.




VA OIG Office of Healthcare Inspections                                                                      5
                                          CAP Review of the Alexandria VA Health Care System, Pineville, LA


EOC
The purpose of this review was to determine whether the facility maintained a clean and
safe health care environment in accordance with applicable requirements and whether the
facility met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the medicine unit, the telemetry unit, the acute MH unit, two CLCs, SDS,
the operating room, the PACU, the urgent care clinic, the eye clinic, the orthopedic clinic, and a
primary care clinic. Additionally, we reviewed relevant documents, conversed with key
employees and managers, and reviewed 17 employee training records (10 SDS, 2 SDS/PACU,
and 5 eye clinic). The table below shows the areas reviewed for this topic. The areas marked
as NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.      Five of eight patient care areas had damaged
                                                         or dirty furnishings, damaged or dirty
                                                         floors/baseboards, and/or mold.
                                                        Five of eight public restrooms were dirty
                                                         and/or had damaged fixtures and walls.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
       Designated SDS and PACU employees
       received bloodborne pathogens training
       during the past 12 months.
 X     Designated SDS employees received medical        None of the 10 SDS employees received
       laser safety training with the frequency          medical laser safety training.
       required by local policy.




VA OIG Office of Healthcare Inspections                                                                  6
                                          CAP Review of the Alexandria VA Health Care System, Pineville, LA


NM        Areas Reviewed for SDS and the PACU                              Findings
                          (continued)
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.
       SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
 X     Designated eye clinic employees received         Four of the five eye clinic employees did not
       laser safety training with the frequency          receive laser safety training.
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

4. We recommended that processes be strengthened to ensure that patient care areas are
clean and in good repair and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that public restrooms are
clean and in good repair and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that all designated same day
surgery and eye clinic employees receive laser safety training in accordance with facility policy
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  7
                                            CAP Review of the Alexandria VA Health Care System, Pineville, LA


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly selected inpatients discharged on
1 of 3 selected oral antibiotics. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
 NA    Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    8
                                           CAP Review of the Alexandria VA Health Care System, Pineville, LA




Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees.               Additionally,
we reviewed the EHRs of 16 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                      Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                              CAP Review of the Alexandria VA Health Care System, Pineville, LA


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 25 randomly selected patients who
experienced stroke symptoms, and 10 employee training records (5 urgent care center and
5 medical-surgical unit), and we conversed with key employees. We also conducted onsite
inspections of the urgent care center, three acute inpatient units, and two CLCs. The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                      Areas Reviewed                                           Findings
 X     The facility’s stroke policy/plan/guideline          The facility’s policy did not address the
       addressed all required items.                         difference in approach to patients presenting
                                                             within the facility’s defined timeframe to be
                                                             eligible for tPA and those presenting outside
                                                             the defined timeframe.
 X     Clinicians completed the National Institutes of      None of the 15 applicable EHRs contained
       Health stroke scale for each patient within the       documented evidence of completed stroke
       expected timeframe.                                   scales.
 NA    Clinicians provided medication (tPA) timely to
       halt the stroke and included all required steps,
       and tPA was in stock or available within
       15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
 X     Clinicians screened patients for difficulty          Seven of the 17 applicable EHRs did not
       swallowing prior to oral intake of food or            contain documentation that patients were
       medicine.                                             screened for difficulty swallowing prior to oral
                                                             intake.
 X     Clinicians provided printed stroke education to      None of the 11 applicable EHRs contained
       patients upon discharge.                              documentation that stroke education was
                                                             provided to the patient/caregiver.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
 X     The facility collected and reported required         There was no evidence that the following data
       data related to stroke care.                          were collected and reported to VHA or the
                                                             Executive Committee of the Medical Staff:
                                                             o Percent of eligible patients given tPA
                                                             o Percent of patients with stroke symptoms
                                                                who had the stroke scale completed
                                                             o Percent of patients screened for difficulty
                                                                swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     10
                                          CAP Review of the Alexandria VA Health Care System, Pineville, LA



Recommendations

7. We recommended that the facility’s stroke policy be revised to address the difference in
approach to patients presenting with symptoms within the facility’s defined timeframe to be
eligible for tissue plasminogen activator and those presenting outside the defined timeframe and
that compliance be monitored.

8. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

9. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake and that compliance be monitored.

10. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.

11. We recommended that the facility collect and report to VHA and the Executive Committee of
the Medical Staff the percent of eligible patients given tissue plasminogen activator, the percent
of patients with stroke symptoms who had the stroke scale completed, and the percent of
patients screened for difficulty swallowing before oral intake.




VA OIG Office of Healthcare Inspections                                                                 11
                                          CAP Review of the Alexandria VA Health Care System, Pineville, LA


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We observed two meal periods and conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
 X     The facility offered restorative nursing          The facility did not offer restorative nursing
       services.                                          services in the CLC.
 NA    Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
 NA    Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
 NA    When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
 NA    If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 NA    Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
 NA    The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 NA    Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
 NA    The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    12
                                          CAP Review of the Alexandria VA Health Care System, Pineville, LA


Recommendation

12. We recommended that the facility offer restorative nursing services and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                 13
                                          CAP Review of the Alexandria VA Health Care System, Pineville, LA


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 34 employees (30 randomly
selected Level 1 ancillary staff and 4 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 28 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted a physical
inspection of one MRI area.    The table below shows the areas reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement.
Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                     Findings
 X     The facility completed an MRI risk              Emergency drills were not conducted in the
       assessment, there were documented                MRI area.
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
 X     Two patient safety screenings were conducted  None of the EHRs contained initial patient
       prior to MRI, and the secondary patient safety   safety screenings.
       screening form was signed by the patient,       Fourteen secondary patient safety screening
       family member, or caregiver and reviewed and     forms were not signed by Level 2 MRI
       signed by a Level 2 MRI personnel.               personnel prior to MRI.
 X     Any MRI contraindications were noted on the     None of the seventeen applicable EHRs
       secondary patient safety screening form, and     contained documentation that all identified
       a Level 2 MRI personnel and/or radiologist       contraindications were addressed prior to
       addressed the contraindications and              MRI.
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI         None of the Level 1 ancillary staff were
       personnel were designated and received           designated or received level-specific MRI
       level-specific annual MRI safety training.       safety training.
 X     Signage and barriers were in place to prevent  The facility had no signage to indicate
       unauthorized or accidental access to Zones III   restriction to Zones III and IV.
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                 14
                                          CAP Review of the Alexandria VA Health Care System, Pineville, LA


Recommendations

13. We recommended that processes be strengthened to ensure that emergency drills are
conducted in magnetic resonance imaging and that compliance be monitored.

14. We recommended that processes be strengthened to ensure that initial patient safety
screenings are conducted and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that Level 2 magnetic
resonance imaging personnel conducting secondary patient safety screenings sign the forms
prior to magnetic resonance imaging and that compliance be monitored.

16. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to the scan
and that compliance be monitored.

17. We recommended that the facility designate Level 1 ancillary staff, that processes be
strengthened to ensure that Level 1 ancillary staff receive annual level-specific magnetic
resonance imaging safety training, and that compliance with training be monitored.

18. We recommended that appropriate signage be in place to identify magnetic resonance
imaging Zones III and IV.




VA OIG Office of Healthcare Inspections                                                                 15
                                           CAP Review of the Alexandria VA Health Care System, Pineville, LA
                                                                                               Appendix A


              Facility Profile (Alexandria/502) FY 2014 through
                                  August 20141
Type of Organization                                                                 Secondary
Complexity Level                                                                     3-Low complexity
Affiliated/Non-Affiliated                                                            Affiliated
Total Medical Care Budget in Millions                                                $194.9
Number of:
    Unique Patients                                                                 30,450
    Outpatient Visits                                                               270,082
    Unique Employees2                                                               994
Type and Number of Operating Beds (as of July 2014):
    Hospital                                                                        105
    CLC                                                                             154
    MH                                                                              NA
Average Daily Census (as of July 2014):
    Hospital                                                                        58
    CLC                                                                             74
    MH                                                                              NA
Number of Community Based Outpatient Clinics                                         4
Location(s)/Station Number(s)                                                        Jennings/502GA
                                                                                     Lafayette Parish/502GB
                                                                                     Fort Polk/502GF
                                                                                     Natchitoches/502GG
VISN Number                                                                          16




1
    All data is for FY 2014 through August 2014 except where noted.

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                          17
                                                        CAP Review of the Alexandria VA Health Care System, Pineville, LA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                               18
                                                                                                      CAP Review of the Alexandria VA Health Care System, Pineville, LA


                                                                         Metric Definitions
 Measure                       Definition                                                                                   Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)            A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                      A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                   A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                         A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                  A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)               A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                            A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                       A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                         A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics; FY13 and later)               A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                         A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)            A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)     A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                        A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                             A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                               A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                      A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                         A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                        A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                    A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                       A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                      A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                          A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                               A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)   A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                   19
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       September 24, 2014

          From:        Director, South Central VA Health Care Network (10N16)

       Subject: 	      CAP Review of the Alexandria VA Health Care System,
                       Pineville, LA

       To: 	           Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. The South Central VA Health Care Network has reviewed and concurs
          with the action plan provided in response to the draft report submitted
          for the Alexandria VA Health Care System, Pineville, LA.

       2. If you have questions or need additional information, please contact
          Reba T. Moore, VISN 16 Accreditation Specialist at (601) 206-7022.




VA OIG Office of Healthcare Inspections                                                          20
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       September 23, 2014

          From:        Director, Alexandria VA Health Care System (502/00)

       Subject:        CAP Review of the Alexandria VA Health Care System,
                       Pineville, LA

             To:       Director, South Central VA Health Care Network (10N16)

       I concur with the recommendations contained within this report.
       Our responses are included.




VA OIG Office of Healthcare Inspections                                                          21
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the Inpatient Management Committee reviews each code episode and that code data
is collected.

Concur

Target date for completion: December 22, 2014

Facility response: The facility governance structure has been revised to reflect the
Inpatient Management Committee (IMC) reporting of code episodes and code data
collection outcomes to the Healthcare Delivery Committee (HDC). The leadership for
the IMC has been revised. HDC has revised its reporting schedule and IMC reports will
be monitored more closely. Compliance with the established reporting schedule will be
reported by the HDC to the Joint Advisory Governing Board. The minutes will be
monitored to ensure compliance.

Recommendation 2.      We recommended that the Surgical Review Committee
document its review of National Surgical Office reports and monitoring of surgery
performance improvement activities.

Concur

Target date for completion: November 1, 2014

Facility response: Effective August 2014, Morbidity and Mortality/Surgical Work Group
Minutes will reflect documentation of National Surgical Office report and surgery
performance improvement activities review with minutes/monitors embedded within.

Recommendation 3. We recommended that processes be strengthened to ensure that
the Blood Usage, Surgical, and Other Invasive Procedures Review Committee
members from Medicine, Surgery, and Anesthesia Services consistently attend
meetings.

Concur

Target date for completion: November 1, 2014

Facility response: An updated recurring meeting appointment was sent to all members
on their Microsoft Outlook calendar. Attendance will be recorded in the minutes.
A review of required committee members was conducted to consolidate membership.


VA OIG Office of Healthcare Inspections                                                          22
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


The Acting Chief, Medical Service and Chief, Specialty Care Service has designated
specific staff to attend the meetings on their behalf.

Recommendation 4. We recommended that processes be strengthened to ensure that
patient care areas are clean and in good repair and that compliance be monitored.

Concur

Target date for completion: December 1, 2014

Facility response: Effective August 2014, additional EMS staff have been assigned to
patient care areas to improve cleanliness. In addition to recurring EOC rounds,
supervisors revised daily walk thru inspection timeframes. The EMS service chief has
also reinforced to EMS supervisors that they should ensure work orders are sent to
Engineering Service when the need for repairs are identified. Will continue to monitor to
ensure compliance.

Recommendation 5. We recommended that processes be strengthened to ensure that
public restrooms are clean and in good repair and that compliance be monitored.

Concur

Target date for completion: December 1, 2014

Facility response: EMS has detailed all public restrooms. On 8/25/14 a list of sinks and
toilets in need of repair was sent to Engineering Service. A schedule for the cleaning of
all public restrooms has been established. Restrooms will be cleaned daily and detailed
as needed. The EMS service chief has also reinforced to EMS supervisors that they
should ensure work orders are sent to Engineering Service when the need for repairs
are identified. Will continue to monitor to ensure compliance.

Recommendation 6. We recommended that processes be strengthened to ensure that
all designated same day surgery and eye clinic employees receive laser safety training
in accordance with facility policy and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: 99% of employees have completed laser safety training.
One employee (Fee Basis) is due to complete laser safety training in September 2014.
Compliance will be monitored monthly by the Administrative Officer for Specialty Care
Service for new employee completion of training. Laser Safety training course was
assigned in Talent Management System (TMS) as an annual training requirement for
designated same day surgery and eye clinic employees to be completed annually.




VA OIG Office of Healthcare Inspections                                                          23
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


Recommendation 7. We recommended that the facility’s stroke policy be revised to
address the difference in approach to patients presenting with symptoms within the
facility’s defined timeframe to be eligible for tissue plasminogen activator and those
presenting outside the defined timeframe and that compliance be monitored.

Concur

Target date for completion: October 31, 2014

Facility response: The facility’s stroke policy [HCSM 111-10, Management of Acute
Ischemic Stroke (AIS) Patients)] has been revised to include the elements identified in
the recommendation. The HCSM 110-10, Management of Acute Ischemic Stroke (AIS)
Patients is on the 9/23/14 Healthcare Delivery Committee Agenda for approval.
Once approved, it will be submitted for electronic concurrence.

Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: An NIHSS template will be updated and submitted to the Medical
Records Committee (MRC) for approval to be embedded in the UCC Provider Note,
UCC Nursing Note, acute inpatient notes for Medicine/MH and for CLC notes.
The template requests have been submitted to the Clinical Applications Coordinator and
the build is scheduled for completion and implementation by September 30, 2014.
Nursing Service and Medical Service will co-manage monitoring of compliance and
reporting to the Inpatient Management Committee on a quarterly basis.

Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians screen patients for difficulty swallowing prior to oral intake and that
compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: Revised HCSM 111-10 will address this area. All patients with AIS
symptoms will be NPO until final disposition.          The following process will be
implemented: The dysphagia screen will be ordered by the provider and completed by
nursing. The template for documentation of the dysphagia screen and an action plan
for education/training for those staff who will complete the screen (those currently on
staff and new hires) was developed by Nursing Education and Lead Speech
Pathologist. Education/training of identified nursing staff who will be responsible for




VA OIG Office of Healthcare Inspections                                                          24
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


completing the screen will be completed by 9/30/14. Nursing Education will monitor
compliance beginning in October 2014 to include the following:
      Education of the identified staff completed-target 95%
      Number of patients having the dysphagia screen completed divided by total
       number of patients AIS-target 100%

Reporting of results will be to the Nursing Process Improvement Committee and
Inpatient Management Committee until a period of 3 months of sustainability is
achieved.

Recommendation 10. We recommended that processes be strengthened to ensure
that clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: On August 14, 2014, the ACNS/Education instructed nursing staff to
provide printed educational material on stroke to all patients diagnosed with AIS.
She also instructed them to document in Patient Education Note that patient has been
provided printed educational material and has received education on the signs of a
stroke and what to do. Education material (2) has been provided to nursing staff to give
to all patients diagnosed with AIS. 15 patients will be audited per month to ensure
Patient Education Note is being used to document printed education material given and
education on signs of a stroke and what to do. This information will be tracked through
Inpatient Management Committee until a period of 3 consecutive months of
sustainability has been reached.

Recommendation 11. We recommended that the facility collect and report to VHA and
the Executive Committee of the Medical Staff the percent of eligible patients given
tissue plasminogen activator, the percent of patients with stroke symptoms who had the
stroke scale completed, and the percent of patients screened for difficulty swallowing
before oral intake.

Concur

Target date for completion: December 31, 2014

Facility response: The AIS quality indicators have been added to Medical Service
Performance Improvement monitoring. Data collection will include the percent of
eligible patients given tissue plasminogen activator, the percent of patients with stroke
symptoms who had the stroke scale completed, and the percent of patients screened
for difficulty swallowing before oral intake. The first report will be submitted to the
Healthcare Delivery Committee (formerly the Executive Committee of the Medical Staff)
and IPEC during Quarter 1 FY 15. Nursing Service and Medical Service will co-manage
monitoring of compliance and reporting to the Committee on a quarterly basis.


VA OIG Office of Healthcare Inspections                                                          25
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


Recommendation 12. We recommended that the facility offer restorative nursing
services and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: The implementation of the Pilot Restorative Program took place on
8/19/2014. Approximately 13–17 Residents will be added per month until all residents
appropriate for a Restorative Program are included. In order to make sure that new
staff who come to work in the CLC are involved in the program, the CLC new employee
orientation has been revised to include the Restorative Care Program.

Recommendation 13. We recommended that processes be strengthened to ensure
that emergency drills are conducted in magnetic resonance imaging and that
compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The Chief of Magnetic Resonance Imaging (MRI) met with the Chief
of the Fire Department and the Environmental Specialist on 8/13/14 to schedule and
plan emergency drills the week of August 25th. An emergency drill with Fire and Police
was completed on 8/21/14 at 16:30 in MRI Service. Mental Health Emergency Drill and
CPR Emergency Drills will be conducted during the month of September 2014.
All emergency drills in MRI will be completed on an annual basis. Monitoring will occur
to ensure compliance.

Recommendation 14. We recommended that processes be strengthened to ensure
that initial patient safety screenings are conducted and that compliance be monitored.

Concur

Target date for completion: November 15, 2014

Facility response: Effective 8/7/14, initial safety screenings are now completed at the
Imaging reception desk. The radiology clerk will sign to verify. The secondary, more
intense screening will be completed and signed by the technologist and patient.
The initial MRI screening process will be monitored monthly to ensure compliance.
Imaging will monitor the number of patients with screening forms/total number of
patients scanned.




VA OIG Office of Healthcare Inspections                                                          26
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


Recommendation 15. We recommended that processes be strengthened to ensure
that Level 2 magnetic resonance imaging personnel conducting secondary patient
safety screenings sign the forms prior to magnetic resonance imaging and that
compliance be monitored.

Concur

Target date for completion: November 15, 2014

Facility response: Effective 8/6/2014, all MRI technologists will sign, not initial, the MRI
screening forms. The secondary MRI screening process will be monitored for
signatures on a monthly basis. Imaging will monitor the number of signatures/total
number of forms.

Recommendation 16. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to the scan and that compliance be monitored.

Concur

Target date for completion: November 15, 2014

Facility response: Effective 8/6/14, documentation of contraindications are documented
on the MRI screening form which is scanned into the medical record and initialed by the
technologist after the Radiologist approves. Documentation of MRI contraindications on
the screening forms will be monitored monthly by measuring the # of MRI screening
forms with contraindications/Total number of MRI patients with contraindications.

Recommendation 17. We recommended that the facility designate Level 1 ancillary
staff, that processes be strengthened to ensure that Level 1 ancillary staff receive
annual level-specific magnetic resonance imaging safety training, and that compliance
with training be monitored.

Concur

Target date for completion: November 15, 2014

Facility response: Effective 8/15/14, Imaging will determine which ancillary staff require
Level I MRI Safety Training by consulting with the Associate Director-Patient Care
Services. All Police, Fire, Code Team, and Urgent Care Nurses will be assigned
Level I MRI Safety Training by Education Service through TMS on an annual basis.




VA OIG Office of Healthcare Inspections                                                          27
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA


Recommendation 18. We recommended that appropriate signage be in place to 

identify magnetic resonance imaging Zones III and IV. 


Concur


Target date for completion: October 1, 2014 


Facility response: Signs were ordered on 8/7/14.                   Order shipped on 9/9/14.

Awaiting delivery and installation.





VA OIG Office of Healthcare Inspections                                                          28
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Gayle Karamanos, MS, PA-C, Team Leader
Contributors            Cathleen King, MHA, CRRN
                        Trina Rollins, MS, PA-C,
                        Larry Ross, MS
                        John Ramsey, Resident Agent in Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          29
                                   CAP Review of the Alexandria VA Health Care System, Pineville, LA
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Alexandria VA Health Care System (502/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mary L. Landrieu, David Vitter
U.S. House of Representatives: Charles W. Boustany, Jr.; William Cassidy;
 John Fleming; Vance McAllister; Cedric Richmond; Steve Scalise


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          30
                                        CAP Review of the Alexandria VA Health Care System, Pineville, LA
                                                                                            Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        31
                                               CAP Review of the Alexandria VA Health Care System, Pineville, LA



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          32
